Record Press Inc., 229 West 36th Street, New York, N.V. 1DD18•
Tel: (212) 619-4949• Fax No. (212)
88780

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

AFFIDAVIT

SERVICE

Howard Daniels being duly sworn. deposes and says that deponent is not party to the action, and is over 18 years of age.
That on the 28th day of May 2021 deponent served 3 copies of the within

WRIT
upon the attorneys at the addresses below. and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAV DELIVERY
Ira S. Sacks
Dreier LLP
488 Park Avenue
New York. NY
(212)

Michael R. Smith
Zuckerman Spaeder, LLP
1800 MStreet. N.W.
Washington. DC 20038
(202) 778-1800

I, Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and

correct. executed on May 28. 2021, pursuant to Supreme Court Rule 28.5(c). All parties required to be served, have been served.

-dia»J~LLJ~.
Howard Daniels

Swarn ta me this
May 28, 2021
Jasmine Williams
Notary Public, State of New York
No. DIWl6387848
D.ualified in D.ueens County
Commission Expires September 16, 2023

Notary Public

Case Name: Oneida Indian Nation v. Phillips
Docket/Case No. 18-2737

